           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   SPOUSES’ TO WIDOW(ER)S’ BENEFITS
     WHEN GOVERNMENT PENSIONS
             ARE INVOLVED

    September 2009    A-13-08-28103




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                            SOCIAL SECURITY
MEMORANDUM

Date:   September 30, 2009                                                                       Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Spouses’ to Widow(er)s’ Benefits When Government Pensions are Involved
        (A-13-08-28103)


        OBJ ECTIVE
        Our objective was to determine whether government pension verifications and payment
        recalculations were completed when auxiliary beneficiaries receiving payments as
        spouses had their benefit status changed to widow(er)s.

        BACKGROUND

        The Social Security Administration (SSA) administers the Old-Age, Survivors, and
        Disability Insurance (OASDI) program under Title II of the Social Security Act. The
        program provides monthly benefits to retired or disabled workers and their families and
        to survivors of deceased workers. 1 An individual may be eligible for OASDI benefits
        under his/her own work history as well as under a spouse’s work history. The amount
        of benefits is based on the work history used in the calculation and the relationship of
        the individuals involved. A beneficiary may be eligible for higher benefits under a
        spouse’s work history at the time of application. However, events, such as the death of
        a spouse, may cause the type and/or amount of benefits to change.

        Spouses of individuals insured under the OASDI program can be eligible for OASDI
        auxiliary benefits, which are based on a percentage of the insured individual’s primary
        insurance amount (PIA). 2 In most cases, the maximum OASDI benefit an individual can
        receive as a spouse is 50 percent of the PIA. However, the maximum OASDI benefit
        amount an individual can receive as a widow(er) is 100 percent of the decedent’s PIA.




        1
            Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
        2
          The PIA is the benefit (before rounding down to the next lower whole dollar) a person will receive if
        he/she elects to begin receiving retirement benefits at his/her full retirement age. At this age, the benefit
        is neither reduced for early retirement nor increased for delayed retirement.
Page 2 - The Commissioner


OASDI auxiliary benefits can be subject to the Government Pension Offset (GPO).
GPO reduces monthly Social Security benefits for spouses, divorced spouses, and
surviving spouses who receive a pension payment 3 based on their own work for a
Federal, State, or local government that was not covered employment, and not subject
to Social Security taxes, under the Federal Insurance Contributions Act (FICA). 4 The
GPO amount is two-thirds the amount of the pension. If two-thirds of the government
pension is equal to or more than the OASDI benefit, spouse or widow(er) OASDI
payments can be reduced to zero.

Under certain conditions, beneficiaries may be granted an exemption from GPO. SSA
policy identifies various situations for granting these exemptions. 5 SSA policy further
instructs that if an exemption applies, staff should verify the exemption in accordance
with policy and record, if applicable, the exemption on GPO data input screens. 6

SSA staff is required to initiate an action to determine whether the change from spouse
to widow(er) status would increase the benefit payment amount. If staff does not make
this assessment, improper payments may occur. To identify individuals who may be
subject to GPO, SSA primarily relies on applicants to report whether they are receiving,
or will receive in the future, a pension based on non-covered earnings (earnings not
subject to FICA taxes). However, for retired Federal employees, SSA receives monthly
pension data from the Office of Personnel Management.

We examined information from an electronic data extract of the Agency’s Master
Beneficiary Record (MBR). The data extracted from 1 segment of the MBR 7 identified
2,769 widow(er)s (1) who had been eligible for OASDI spousal benefits; (2) for whom
SSA concluded GPO was applicable to those spousal benefits; and (3) whose OASDI
benefit status changed from spouse to widow(er) between January 1, 1985
and August 18, 2008. We selected for review a random sample of 100 widow(er)s. See
Appendix B for our Scope and Methodology, and Appendix C for our Sampling
Methodology and Results.




3
  A pension payment is defined as any periodic or lump-sum payment received from a defined benefit or
contribution plan that is based on the person's own noncovered earnings while in the service of a State,
local, or Federal government.
4
    Social Security Act § 202(k)(5), 42 U.S.C. § 402(k)(5); 20 C.F.R. § 404.408a.
5
 Program Operations Manual System (POMS), GN 02608.100 General Rules for Government Pension
Offset and GN 02608.101 - 107 (POMS provisions related to GPO exemptions).
6
    POMS, GN 02608.200 Processing Initial Claims, Section 4.a.
7
  The MBR is divided into 20 segments with each segment representing 5 percent of all OASDI benefit
records.
Page 3 - The Commissioner


RESULTS OF REVIEW
SSA did not always verify government pension information as required by the Agency’s
policies and procedures. SSA determined GPO was applicable to the OASDI spousal
benefits for all 100 widow(er)s selected for review. When these 100 beneficiaries’
status changed from spouse to widow(er)s, we found SSA staff did not verify
15 widow(er)s’ government pension information as required. Because the government
pension information was not verified, improper payments of about $57,000 were made
from January 1985 through August 2008 to six widows in our sample. Five widows
were overpaid, 8 and one was underpaid.

We also tested the sample records to determine whether the new benefit payment was
accurately calculated when the spousal benefits were converted. Generally, we found
payment recalculations were completed accurately when spouses’ status changed to
widow(er)s. Of the 85 widow(er)s who had their government pension information
verified, we identified 3 whose payments were not converted accurately. From
January 1985 through August 2008, improper payments totaling about $25,000 were
made to these three individuals. One widow was overpaid, and two were underpaid.

                      Verification of Government Pension Information for
                                      100 Sample Records

                                                                                 9
                                                                         Did not have
                                                                            payment
                        Complied
                                                                             errors
                 82     with               Did not
                        policy           comply with       15
                                              policy                         Had
                                                                           payment
                                                                            errors
                                                       3
                                                 Complied with policy,
                                                but payment inaccurate      6


In total, we identified 9 individuals with improper payments from the 100 sampled.
These nine payment errors totaled about $82,000. Estimating our sample results to the
population, SSA staff made errors converting about 4,980 spousal benefits to widows
resulting in about $45.5 million in improper payments between January 1985 and
August 2008. If these errors are not corrected, about 4,400 individuals will have
payment errors totaling about $147.8 million over their remaining expected lifetimes. 9

8
  As of September 8, 2009, the Agency has verified four of the five overpayments. For the one
overpayment that has not been verified, we included an overpayment of $34,815 based on the pension
information recorded in SSA’s information systems at the time of our review.
9
    See Appendix C for details on our sampling results and estimates.
Page 4 - The Commissioner


SSA Did Not Always Verify Government Pension Information, As Required

When a spouse receives a government pension and applies for OASDI widow(er)
benefits, SSA takes action to verify the government pension information. SSA policy 10
directs staff to either (a) request a spouse to answer questions about a government
pension based on his/her own government employment, not covered under Social
Security, that is or may be received; or (b) complete Form SSA-3885, Government
Pension Offset questionnaire. SSA had determined GPO was applicable to the spousal
benefits for all 100 widow(er)s we reviewed. During our review, we did not determine
the accuracy of government pension information used for, or SSA’s decisions
concerning, OASDI widow(er)s benefits.

For those beneficiaries eligible for OASDI spousal benefits whose benefit status
changed to widow(er)s, SSA policy indicates verification of Government pension
information is not required in total offset cases. 11 In total offset cases, OASDI auxiliary
benefits are reduced to zero. However, Agency policy 12 requires that corroborating
evidence be obtained if
• the report is from a source other than the employer or pension-paying agency; and
• a change in the pension or spouse's monthly benefit will result in an increase in the
  benefit amount payable, for example, total to partial GPO will occur; and
• the pension information of record was not previously corroborated; or
• the pension information of record is more than 2 years old.

We examined information recorded in SSA’s information systems for 100 beneficiaries
who were eligible for OASDI spousal benefits and whose benefit status changed to
widow(er)s. Of the 100 widow(er)s selected for review, we found actions taken by the
Agency for 85 complied with SSA’s policies regarding government pension information.
Of the 85, we found the government pension information of record continued to result in
GPO that reduced OASDI benefits to zero for 43 widow(er)s. In compliance with policy,
Agency staff did not verify the pension information for these widow(er)s. The Agency
verified government pension information for 41 widow(er)s. Finally, for one widow, the
application for OASDI benefits was withdrawn.




10
   POMS, GN 02608.100 C.1. The referenced POMS indicates that SSA should “Request the spouse to
answer questions on the CLGP [Claimant Government Pension] MCS [Modernized Claims System]
screen. . . .” Based on the responses received, a spouse can be requested to provide detailed
information about a government pension based on his/her own government employment, not covered
under Social Security, that is or may be received.
11
     POMS, GN 02608.100 General Rules for Government Pension Offset, Section C.2.
12
     POMS, GN 02608.300 A.1.b.
Page 5 - The Commissioner


SSA did not always verify government pension information, as required by its policies
and procedures. 13 For 15 of the 100 widow(er)s we reviewed, corroborating evidence
was not obtained for government pension information, as required. Since corroborating
evidence was not obtained, the GPO amount used to calculate OASDI spousal benefits
was also used to recalculate widow(er)s’ benefits.

Of the 15 widow(er)s for whom corroborating evidence was not obtained for their
government pension information, we found 4 were granted exemption from GPO. In
each instance, the applicable MBR was annotated to indicate the exemption was
“previously established.” However, the MBRs did not contain information indicating the
basis for the exemptions, as required.

We also learned the Agency implemented an automated alert process in July 2004.
This automated alert notifies staff when a spouse becomes a widow(er) and the
verification of government pension information is over 2 years old. Three of the
15 widow(er)s we identified were converted from spouses to widow(er)s after SSA
implemented this alert process. The remaining 12 widow(er)s’ conversions occurred
before implementation of the alert process.

In March 2009, we met with staff from SSA’s Office of Operations, Office of Public
Service and Operations Support, to determine why the required government pension
verifications were not completed for 15 widow(er)s. Staff agreed corroborating evidence
should have been, but was not, obtained for these widow(er)s. Staff stated a “systems
alert” should be automatically sent to the applicable program service center when
corroborating evidence must be obtained. Further, staff was unable to explain why the
15 widow(er)s’ government pension information was not verified. Regarding the
four instances where the Agency granted exemption from GPO, we were advised “it
appeared” the MBRs were coded erroneously. We requested that SSA verify the
15 widow(er)s’ pension information.

From July to September 2009, SSA provided additional information about the widows
we referred for further review. SSA’s verification of pension information determined that
nine widow(er)s did not have payment errors, and improper payments were made to
six widows. One widow was underpaid about $2,000, and five widows 14 were overpaid
about $55,000. Because government pension information was not verified timely,
improper payments of about $57,000 were made from January 1, 1985
through August 2008 to six widows in our sample.




13
     POMS, GN 02608.300.
14
   As of September 8, 2009, the Agency has verified four of the five overpayments. For the one
overpayment that has not been verified, we included an overpayment of $34,815 based on the pension
information recorded in SSA’s information systems at the time of our review.
Page 6 - The Commissioner


OASDI Widow(er)s’ Benefit Recalculations Were Not Always Completed
Accurately

Generally, we found payment recalculations were completed when auxiliary
beneficiaries receiving payments as spouses had their benefit status changed to
widow(er)s. We determined whether benefit payment recalculations were completed for
the 85 widow(er)s according to SSA’s government pension verification policies. Of the
85 widow(er)s, we found benefit payments for 84 were recalculated when their benefit
status changed. For the remaining widow, benefit payment recalculation was not
completed. Using the government pension information recorded in SSA’s information
systems at the time of our review, we recalculated this widow’s benefit payment. Our
computations indicated this widow was improperly paid. We requested SSA review the
widow’s information, and the Agency subsequently acknowledged the widow was
underpaid about $370 in July and August 2008.

We examined the recalculated OASDI benefits of the remaining 84 widow(er)s and
identified 2 instances where benefit payments were recalculated incorrectly. Our
computations indicated these widows were improperly paid. We requested that SSA
review the widows’ information. The Agency subsequently acknowledged one widow
was underpaid and the other was overpaid. For the period January 1985 through
August 2008, two widows were underpaid a total of $830, and one widow was overpaid
about $24,150.

For the period January 1985 through August 2008, we identified a total of about
$25,000 in payment errors on three widows’ payment records because SSA staff did not
recalculate the benefit amounts accurately.

CONCLUSION AND RECOMMENDATIONS

For the widow(er)s reviewed, we found in most instances, SSA complied with its policies
for verifying government pension information. Generally, we also found payment
recalculations were completed when auxiliary beneficiaries receiving payments as
spouses had their benefit status changed to widow(er)s. However, we believe SSA
could improve its management controls over these matters.

From January 1985 through August 2008, we estimate about 8,300 widow(er)s’
government pension information was not verified as required. Further, approximately
4,980 widow(er)s received improper payments because recalculations were not
completed or OASDI benefits were inaccurately recalculated. As a result of these
conditions, we estimate improper payments totaling approximately $45.5 million
occurred during this period.

Furthermore, we estimate about 4,400 widow(er)s will have payment errors of
approximately $147.8 million over their lifetimes if SSA does not take action to verify
pension information, recalculate benefits payments when auxiliary beneficiaries
receiving payments as spouses have their benefit status changed to widow(er)s, and
Page 7 - The Commissioner


correct benefit recalculation errors. Since the total value of improper payments could be
significant, we believe SSA should take action to prevent these conditions from
occurring.

We recommend SSA:

1. Correct the payment errors we identified where corroborating evidence of
   government pension information was not obtained as required.

2. Determine whether it would be cost effective to conduct a clean-up project to identify
   current widow(er)s whose government pension information was not verified as
   required by policy, take appropriate action to verify the information, and adjust the
   OASDI payment amounts as needed.

3. Remind employees to follow policies and procedures to verify government pension
   information when required to do so.

AGENCY COMMENTS
SSA agreed with our recommendations (see Appendix D).




                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology and Results
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
FICA     Federal Insurance Contributions Act
GPO      Government Pension Offset
MBR      Master Beneficiary Record
OASDI    Old-Age, Survivors, and Disability Insurance
OIG      Office of the Inspector General
PIA      Primary Insurance Amount
POMS     Program Operations Manual System
SSA      Social Security Administration
U.S.C.   United States Code
                                                                                      Appendix B

Scope and Methodology
To accomplish our objective, we:

    • Reviewed applicable Federal laws and regulations, pertinent parts of the Social
      Security Administration’s (SSA) Program Operations Manual System and other
      criteria relevant to the Old-Age, Survivors, and Disability Insurance (OASDI)
      programs and Government Pension Offset (GPO).

    • Identified and reviewed prior relevant audits.

    • Examined information from an electronic data extract of the Agency’s Master
      Beneficiary Record (MBR). The data extracted from 1 segment of the MBR 1
      identified 2,769 widow(er)s (1) who had been eligible for OASDI spousal benefits;
      (2) for whom SSA concluded GPO was applicable to those spousal benefits; and
      (3) whose OASDI benefit status changed from spouse to widow(er) between
      January 1, 1985 through August 18, 2008.

    • Selected a random sample of 100 widow(er)s from the 2,769 identified. For the
      widow(er)s selected, we determined whether (1) corroborating evidence was
      obtained when the benefit payment status changed from spouse to widow(er);
      (2) OASDI benefit recalculations were completed when auxiliary beneficiaries
      receiving payments as spouses had their benefit status changed to widow(er)s;
      and (3) calculation errors occurred when auxiliary beneficiaries receiving OASDI
      payments as spouses had their benefit status changed to widow(er)s. See
      Appendix C for further information on our sampling methodology and results.

    • Used government pension information and the primary insurance amount 2
      recorded in SSA’s information systems at the time of our review to recalculate
      OASDI benefits for the 100 widow(er)s in our sample.

    • Examined information recorded in the MBR and Modernized Claims System for
      selected widow(er)s.




1
  The MBR is divided into 20 segments with each segment representing 5 percent of all OASDI benefit
records.
2
 The primary insurance amount is the benefit (before rounding down to next lower whole dollar) a person
would receive if he/she elects to begin receiving retirement benefits at his/her full retirement age. At this
age, the benefit is neither reduced for early retirement nor increased for delayed retirement.


                                                    B-1
We determined the computer-processed data used for this audit were sufficiently
reliable for their intended use. Further, any data limitations were minor in the context of
this assignment, and the use of the data should not lead to an incorrect or unintentional
conclusion. The electronic data used in our audit were primarily extracted from the
MBR.

The entity audited was the Office of Public Service and Operations Support under the
Deputy Commissioner for Operations. We performed our review in Baltimore,
Maryland, from October 2008 to July 2009. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.




                                            B-2
                                                                               Appendix C

Sampling Methodology and Results
We examined information from an electronic data extract of the Social Security
Administration’s (SSA) Master Beneficiary Record (MBR). The data extracted from
1 segment of the MBR 1 identified 2,769 widow(er)s (1) who had been eligible for
Old-Age, Survivors, and Disability Insurance (OASDI) spousal benefits; (2) for whom
SSA concluded Government Pension Offset was applicable to those spousal benefits;
and (3) whose OASDI benefit status changed from spouse to widow(er) between
January 1, 1985 and August 18, 2008.

Of the 2,769, we selected and reviewed a random sample of 100 widow(er)s.

                           Table 1: Sample Population from MBR
                          January 1, 1985 Through August 18, 2008
    Population Size (1 Segment of MBR) 2                                                    2,769
    Sample Size                                                                               100

For the 100 widow(er)s selected, we determined whether (1) corroborating evidence
was obtained when the benefit status changed from spouse to widow(er); (2) OASDI
benefit recalculations were completed when auxiliary beneficiaries receiving payments
as spouses had their benefit status changed to widow(er)s; and (3) calculation errors
occurred when auxiliary beneficiaries receiving OASDI payments as spouses had their
benefit status changed to widow(er)s.

     Table 2: Number of Beneficiaries Where Government Pension Information Was Not
                    Verified or Corroborating Evidence Was Not Obtained
                           January 1, 1985 Through August 18, 2008
    Sample Size                                                                  100
    Number of Widow(er)s Whose Government Pension Information Was
    Not Verified/Corroborating Evidence Not Obtained                              15
    Projection of Widow(er)s Whose Government Pension Information Was Not Verified
    or Corroborating Evidence Not Obtained
        Point Estimate (1 Segment of MBR)                                        415
        Lower Limit                                                              265
        Upper Limit                                                              609
        Total Estimate (20 Segments of MBR)                                    8,300
Note: All projections are at the 90-percent confidence level.




1
 The MBR is divided into 20 segments with each segment representing 5 percent of all OASDI benefit
records.
2
    Population of electronic data extracted from 1 segment of the MBR.


                                                    C-1
Of the 100 widow(er)s in our sample, we found recalculations of OASDI benefits for
9 widows were not accurate. Improper payments of $82,199 were made to the
9 widows. Projecting these results to all 20 segments of the MBR, we estimate
improper payments of approximately $45.5 million were made to about
4,980 widow(er)s. The following tables provide the details of our sample results,
statistical projections, and estimates.

          Table 3: Number of OASDI Widow(er)s’ Benefits That Were Not Accurate
                          January 1, 1985 Through August 18, 2008
    Sample Size                                                                  100
    Number of Widow(er)s’ OASDI Benefits That Were Not Accurate                    9
    Projection of Widow(er)s’ OASDI Benefits That Were Not Accurate
       Point Estimate (1 Segment of MBR)                                         249
       Lower Limit                                                               134
       Upper Limit                                                               417
       Total Estimate (20 Segments of MBR)                                     4,980
Note: All projections are at the 90-percent confidence level.

          Table 4: Amount of OASDI Widow(er)s’ Benefits That Were Not Accurate
                          January 1, 1985 Through August 18, 2008
    Sample Size                                                                  100
    Amount of Widow(er)s’ OASDI Benefits That Were Not Accurate              $82,199
    Projection of Widow(er)s’ OASDI Benefits That Were Not Accurate
       Point Estimate (1 Segment of MBR)                                  $2,276,108
       Lower Limit                                                          $251,337
       Upper Limit                                                        $4,300,880
       Total Estimate (20 Segments of MBR)                               $45,522,160
Note: All projections are at the 90-percent confidence level.

We also estimated the improper payments that can occur if SSA does not take
corrective action to identify and correct the amount of OASDI benefits for widow(er)s.
Our estimate is based on eight 3 widows we identified as having inaccurate OASDI
benefits as of the date we completed our review. For the eight widows, we used the
over or underpayment amounts as of August 2008 to calculate their future estimated
improper payments.




3
  We identified nine benefit calculation errors resulting in the improper payment of monthly benefits.
However, SSA staff identified the incorrect payment for one widow and took corrective action to adjust the
benefit payment during our review period. As a result, we excluded this widow from our estimates related
to improper payments that can occur in the future if SSA does not take corrective action.



                                                    C-2
         Table 5: Future OASDI Widow(er)s’ With Payment Errors if Corrective
                               Actions are Not Taken
    Sample Size                                                               100
    Number of Widow(er)s’ OASDI Benefits That Were Not Accurate                 8
    Projection of Widow(er)s’ OASDI Benefits That Were Not
    Accurate
       Point Estimate (1 Segment of MBR)                                      222
       Lower Limit                                                            114
       Upper Limit                                                            383
       Total Estimate (20 Segments of MBR)                                  4,440
Note: All projections are at the 90-percent confidence level.



        Table 6: Future OASDI Widow(er)s’ Benefit Payment Errors if Corrective
                                Actions are Not Taken
    Sample Size                                                                 100
    Amount of Widow(er)s’ Monthly OASDI Benefits That Were Not
    Accurate 4                                                            $266,855
    Projection of Widow(er)s’ Monthly OASDI Benefit Errors That Will Occur if Not
    Corrected
       Point Estimate (1 Segment of MBR)                                $7,389,219
       Lower Limit                                                        $849,241
       Upper Limit                                                     $13,929,198
       Total Estimate (20 Segments of MBR)                            $147,784,380
Note: All projections are at the 90-percent confidence level.




4
  To estimate the amount of payment errors that may occur to these widow(er)s in the future, we
multiplied the monthly over or underpayment amount by the number of months the beneficiaries are
expected to live beyond August 2008. We used the life expectancy rates published by the Department of
Health and Human Services, Centers for Disease Control and Prevention (National Vital Statistics Report,
Vol. 56, No.9, Tables 2 and 3, December 28, 2007) to determine the number of months the beneficiaries
were expected to live beyond August 2008. This methodology was used to estimate improper payments
that may occur if SSA does not take action to identify and correct the amount of OASDI benefits for
widow(er)s.


                                                    C-3
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY
MEMORANDUM


Date:      September 24, 2009                                                      Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Margaret J. Tittel //s//
           Acting Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Spouses’ to Widow(er)s’ Benefits When
           Government Pensions are Involved” (A-13-08-28103)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report findings and
           recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "SPOUSES' TO WIDOW(ER)S’ BENEFITS WHEN GOVERNMENT
PENSIONS ARE INVOLVED" A-13-08-28103


Recommendation 1

Correct the payment errors identified where corroborating evidence of government pension
information was not obtained as required.

Response

We agree. We have corrected the payment errors for all of the cases identified, except for one.
We are currently taking action to correct this last case.

Recommendation 2

Determine whether it would be cost effective to conduct a clean-up project to identify current
widow(er)s whose government pension information was not verified as required by policy, take
appropriate action to verify the information, and adjust the Old-Age, Survivors, and Disability
Insurance (OASDI) payment amounts as needed.

Response

We agree. We will evaluate the cost effectiveness of conducting a clean-up project.

Recommendation 3

Remind employees to follow policies and procedures to verify government pension information
when required to do so.

Response

We agree. In the first quarter of fiscal year 2010, we will issue a reminder to staff to follow
agency policies and procedures when verifying government pension information.



[In addition to the information listed above, SSA provided technical comments which
have been addressed, where appropriate, in this report.]




                                                D-2
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, Evaluation Division
   Randy Townsley, Audit Manager

Acknowledgments

In addition to those named above:

   Janet Stein-Pezza, Auditor-in-Charge
   Tracey Edwards, Auditor
   Nicole Gordon, Auditor
   Brennan Kraje, Statistician
   Charles Zaepfel, IT Specialist

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-13-08-28103.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
